HHS/OIG-Audit--"Review of Federal Nonparticipating Foster Care Costs Which the New York State Department of Family Assistance Retroactively Claimed to the Emergency Assistance Program, (A-02-98-02002)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Federal Nonparticipating Foster Care Costs Which the New York State Department of Family Assistance Retroactively
Claimed to the Emergency Assistance Program," (A-02-98-02002)
February 29, 2000
Complete
Text of Report is available in PDF format (1.63 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
New York retroactively claimed $13.2 million ($6.6 million Federal share) in Federal nonparticipating foster care costs
for reimbursement under the Title IV-A Emergency Assistance (EA) program. Our statistical sample of 100 such claims disclosed
that 74 were not allowable for EA reimbursement. Specifically, 72 claims were unallowable because they included services
provided outside the 12-month statutory limit for reimbursement, one claim was missing authorization, and one claim was
for services which were provided after the emergency had ended. Based on our sample, we estimate that at least $7.3 million
($3.6 million Federal share) of New York's retroactive claim is unallowable. We are recommending a financial adjustment
for the $3.6 million.